Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 PUBLIC HEALTH LABORATORY 

   TESTING TO DETECT AND 

 REPORT BIOLOGICAL THREATS





                    Daniel R. Levinson

                     Inspector General 


                      October 2008

                     OEI-04-07-00750

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                   S U M M A R Y


                  OBJECTIVE
                  To assess the extent to which State public health laboratories have
                  made progress toward the Centers for Disease Control and Prevention’s
                  (CDC) requirements intended to decrease the time needed to detect and
                  report biological public health threats.


                  BACKGROUND
                  Since 2002, the Department of Health and Human Services has made
                  available more than $7 billion in funding to increase State and local
                  public health preparedness and emergency response capabilities. These
                  funds were awarded through the Office of the Assistant Secretary for
                  Preparedness and Response, CDC, and the Health Resources and
                  Services Administration.

                  In 2006, through its Public Health Emergency Preparedness
                  Cooperative Agreement (Cooperative Agreement), CDC allocated
                  approximately $766 million to 62 awardees to meet nine overarching
                  preparedness goals. Preparedness Goal 3: Detect and Report is the
                  only goal that focuses on public health laboratory testing and reporting
                  of biological threats. This goal contains two required critical tasks, with
                  a total of 11 requirements. Further, these requirements contain
                  multiple elements that State public health laboratories must meet to
                  decrease the time needed to detect and report biological public health
                  threats. These critical tasks and requirements have remained
                  unchanged since 2005 and should be completed in 5 years, ending in
                  2010.

                  To meet most of the Preparedness Goal 3 testing and reporting
                  requirements, State public health laboratories must coordinate with
                  private clinical laboratories that perform preliminary testing and ship
                  specimens to the State. These are known as sentinel laboratories.
                  Sentinel laboratories perform diagnostic tests on specimens from
                  patients to identify biological agents that cause illness. When sentinel
                  laboratories cannot identify the biological agents in specimens, they
                  ship specimens to a confirmatory laboratory, usually the State public
                  health laboratory, for further testing.

                  We surveyed public health laboratory officials in all 50 States and three
                  metropolitan areas (hereafter referred to as 53 States) about the extent
                  to which they met 9 of the 11 testing and reporting requirements for


OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   i
E X E C U T I V E                      S U           M M A R Y


                   State public health laboratories specified by the Cooperative
                   Agreement.


                   FINDING
                   All States reported meeting at least three of the CDC public health
                   laboratory testing and reporting requirements that we reviewed,
                   but no State met all nine. States reported meeting the nine public
                   health laboratory testing and reporting requirements we reviewed to
                   varying degrees. At least 87 percent of States reported meeting all
                   elements in four of nine requirements:
                    •	     All States reported the availability of a Biosafety Level-3
                           (BSL-3) testing facility or had an agreement to use the BSL-3
                           testing capacity of another jurisdiction.

                    •	     Ninety-six percent of States (51 of 53) reported the capacity to test
                           and report the viruses that cause smallpox, cowpox, and
                           chickenpox.

                    •	     Ninety-four percent of States (50 of 53) reported having the
                           instrumentation and staff to perform required laboratory tests.

                    •	     Eighty-seven percent of States (46 of 53) reported training public
                           health laboratory personnel on all required shipping-related tasks.

                   Less than 65 percent of States reported meeting all elements in
                   five of nine testing and reporting requirements we reviewed, and less
                   than 10 percent of States reported meeting all elements in two of these
                   five requirements:

                   •	     Sixty-four percent of States (34 of 53) reported developing all
                          required elements of a laboratory operational plan.

                   •	     Forty-two percent of States (22 of 53) reported testing the
                          competency of their Bioterrorism Laboratory Coordinator or
                          designated trainer to advise laboratory personnel on required
                          shipping-related elements.

                   •	     Thirty-two percent of States (17 of 53) reported conducting exercises
                          to monitor compliance with their timeliness policy for reporting test
                          results.

                   •	     Nine percent of States (5 of 53) reported testing the ability of
                          sentinel laboratories to ship biological specimens during all three
                          required timeframes: weeknights, weekends, and holidays.


 OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   ii
E X E C U T I V E                        S U           M M A R Y


                   •	     Six percent of States (3 of 53) reported using at least the
                          CDC-endorsed definition of basic sentinel laboratory to identify
                          sentinel laboratories in their jurisdictions and maintained a
                          database of sentinel laboratories including all seven required
                          elements.


                   RECOMMENDATION
                   The CDC Public Health Emergency Preparedness Cooperative
                   Agreement provides funds to States to increase their public health
                   preparedness and response capabilities. To improve public health
                   laboratory preparedness, States must meet specific requirements to
                   decrease the time needed to detect and report biological threats to
                   public health. These requirements have remained unchanged since
                   2005 and should be completed in 5 years, ending in 2010.

                   All States reported meeting at least three of the testing and reporting
                   requirements we reviewed, but no State met all nine.

                   At least 87 percent of States reported meeting all elements in four of
                   nine requirements that we reviewed. Less than 65 percent of States
                   reported meeting all elements in the other five requirements, and less
                   than 10 percent of States reported meeting all elements in two of
                   these five requirements.
                   We recommend that CDC continue to assist States in meeting
                   Cooperative Agreement requirements intended to decrease the time
                   needed to detect and report biological public health threats. There are
                   2 years remaining before States must complete all laboratory
                   preparedness requirements. Therefore, CDC should place special
                   emphasis on improving performance for the two requirements met by
                   less than 10 percent of States. CDC could improve performance for
                   these requirements by the following two methods:
                    •	     determining why less than 10 percent of States conducted tests of
                           their sentinel laboratories’ shipping capabilities outside of
                           regular business hours and providing assistance to States on how
                           to increase the number of tests conducted, and

                    •	     ensuring that States use a consistent method to identify sentinel
                           laboratories to include in their databases and that the databases
                           include all required elements.




 OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   iii
E X E C U T I V E                       S U           M M A R Y 




                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CDC concurred with our overall recommendation that it should
                   continue to assist States in meeting the Cooperative Agreement
                   requirements intended to decrease the time needed to detect and report
                   biological public health threats. However, CDC suggested that OIG
                   revise the two methods we provided on improving performance for the
                   requirements met by less than 10 percent of States.

                   OIG agreed with the recommended changes to the first method and
                   revised the report accordingly, but did not incorporate the recommended
                   revisions for the second method because we do not consider them to be
                   consistent with the Cooperative Agreement.

                   CDC also provided general and technical comments on our draft report.
                   In its general comments, CDC noted that States have until 2010 to meet
                   all the requirements we reviewed and requested that this information
                   be stated prominently in our final report. CDC also recommended that
                   OIG provide background information on how the Cooperative
                   Agreement requirements were developed.
                   OIG added an additional reference to the 2010 completion date in the
                   Recommendation section of this final report, but did not describe how
                   the requirements were developed because that information is not
                   necessary to explain our report findings. Finally, we have incorporated
                   responses to CDC’s technical comments as appropriate.




 OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDING................................................... 5

                   All States reported meeting at least three of the testing and

                   reporting requirements that we reviewed, but no State met 

                   all nine. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                    Agency Comments and Office of Inspector General 

                    Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                   A: 	Overview of the Centers for Disease Control and 

                       Prevention’s Nine Public Health Emergency 

                       Preparedness Goals. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                   B:	 Centers for Disease Control and Prevention’s 

                       Preparedness Goal 3: Detect and Report . . . . . . . . . . . . . . . . 19 


                   C:	 Sentinel Laboratory Definitions Endorsed by the Centers for 

                       Disease Control and Prevention . . . . . . . . . . . . . . . . . . . . . . . . 22 


                   D: 	States Grouped by the Number of Centers for Disease

                       Control and Prevention Public Health Laboratory Testing 

                       and Reporting Requirements They Reported Meeting. . . . . . . 24 


                   E: 	 Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To assess the extent to which State public health laboratories have
                  made progress toward the Centers for Disease Control and Prevention’s
                  (CDC) requirements intended to decrease the time needed to detect and
                  report biological public health threats.


                  BACKGROUND
                  Funding for Public Health Emergency Preparedness and Response
                  Since 2002, the Department of Health and Human Services (HHS) has
                  made available more than $7 billion in funding to increase State and
                  local public health preparedness and emergency response capabilities. 1
                  These funds were awarded through the Office of the Assistant Secretary
                  for Preparedness and Response, CDC, and the Health Resources and
                  Services Administration. 2
                  In 2006, through its Public Health Emergency Preparedness
                  Cooperative Agreement (Cooperative Agreement), CDC allocated
                  approximately $766 million to 62 awardees to meet nine preparedness
                  goals. 3 4 See Appendix A for an overview of the nine preparedness
                  goals. Preparedness Goal 3: Detect and Report is the only goal that
                  focuses on public health laboratory testing and reporting of biological
                  threats. This goal contains two required critical tasks, with a total of
                  11 specific requirements. Further, these requirements contain multiple
                  elements that State public health laboratories must meet to decrease
                  the time needed to detect and report public health threats. These
                  critical tasks and requirements have remained unchanged since 2005
                  and should be completed in 5 years, ending in 2010. See Appendix B for
                  the full text of the public health laboratory testing critical tasks and
                  requirements.



                      1 HHS News Release, July 17, 2007. Available online at
                  http://www.hhs.gov/news/press/2007pres/07/pr20070717c.html. Accessed on
                  December 18, 2007.
                      2 Ibid.
                      3 2006 CDC Public Health Emergency Preparedness Cooperative Agreement
                  Announcement (hereafter referred to as Cooperative Agreement), pp. 48–50. Available
                  online at http://www.bt.cdc.gov/planning/coopagreement/pdf/fy06announcement.pdf.
                  Accessed on December 20, 2007.
                     4 The 62 awardees are the 50 States, the District of Columbia, Los Angeles County,
                  Chicago, New York City, Puerto Rico, the U.S. Virgin Islands, and the Pacific Basin
                  jurisdictions.

OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   1
I N T R O D        U C T            I O N


                    Public Health Laboratory Preparedness
                    As of December 2007, there were 247 public health laboratories in the
                    United States. 5 All States have at least one public health laboratory,
                    and larger States have multiple public health laboratories that operate
                    as a system. State public health laboratories play a crucial role in
                    public health preparedness and response by testing specimens from
                    patients to identify the agents that cause illness. They then provide the
                    test results to health care professionals in the community so an
                    appropriate public health response can be initiated. However, State
                    public health laboratories rely on private clinical laboratories, which are
                    not under the authority of State public health laboratories, to obtain
                    specimens from patients.
                    Clinical laboratories are often the first line of defense in public health
                    response because they perform diagnostic tests ordered by physicians.
                    Some clinical laboratories also perform tests to rule out the presence of
                    specific biological agents in specimens from patients. In addition, they
                    ship specimens to a confirmatory laboratory, usually the State public
                    health laboratory, when further testing is required.

                    Not all clinical laboratories have the capabilities to perform tests to rule
                    out the presence of specific biological agents and ship specimens to a
                    confirmatory laboratory. Clinical laboratories with these capabilities
                    are known as sentinel laboratories. CDC defines sentinel laboratories
                    as basic or advanced depending on their policies and procedures, as well
                    as available equipment and staff training. See Appendix C for the
                    CDC-endorsed definitions of basic and advanced sentinel laboratories. 6
                    Related Office of Inspector General Work
                    A 2002 report by the Office of Inspector General (OIG) found that State
                    and local public health infrastructure was underprepared to detect and
                    respond to bioterrorism. 7 Insufficient laboratory capacity, supported to
                    a large extent by clinical laboratories, was partially responsible for this
                    lack of preparedness.



                      5 “Clinical Laboratory Improvement Amendments (CLIA) Update,” Division of
                    Laboratory Services, Centers for Medicare & Medicaid Services (CMS), Laboratories by
                    Type of Facility, December 2007. Available online at
                    http://www.cms.hhs.gov/CLIA/downloads/factype.pdf. Accessed on April 23, 2008.
                        6 These definitions were approved by the Laboratory Response Network (LRN)
                    Leadership Council. The LRN is a collaborative effort of CDC, the Federal Bureau of
                    Investigation, and the Association of Public Health Laboratories.
                        7 OEI-02-01-00550, “State and Local Bioterrorism Preparedness.”


 OEI-04-07-00750    P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   2
I N T R O D        U C T             I O N


                   In a 2007 report, OIG found that opportunities existed to improve State
                   public health laboratory coordination with clinical laboratories to
                   decrease the time needed to detect and report a pandemic influenza
                   outbreak. 8


                   METHODOLOGY
                   Scope
                   In June 2007, we surveyed public health laboratory officials in all
                   50 States, the District of Columbia, New York City, and Los Angeles
                   County (hereafter referred to as 53 States). 9 We asked the extent to
                   which they met 9 of the 11 laboratory testing and reporting
                   requirements for biological threats specified by the 2006 Cooperative
                   Agreement. The survey reporting period was from June 2006 to June
                   2007.

                   We excluded two Cooperative Agreement public health laboratory
                   testing and reporting requirements from our study. We did not assess
                   whether laboratories met the minimum requirements of the Select
                   Agent Regulation or U.S. Patriot Act of 2001 (Requirement 7).
                   Oversight of this requirement does not fall solely under HHS. We also
                   did not assess States’ compliance with the Public Health Information
                   Network (PHIN) as specified by Requirement 11 because CDC officials
                   stated that they had plans to substantially revise PHIN requirements
                   around the time we started our study.

                   We focused our study on biological testing of specimens from humans
                   because the most recent threats to public health have been biological in
                   nature (e.g., anthrax, salmonella, E. coli). We did not ask States about
                   their public health laboratory chemical or radiological testing
                   capabilities.
                   Data Collection
                   We contacted the Cooperative Agreement Coordinators in 53 States to
                   determine the most appropriate contacts to receive our public health
                   laboratory preparedness survey. We sent an electronic survey to the
                   public health laboratory official identified by the Cooperative
                   Agreement Coordinator in each State.



                       8 OEI-04-07-00670, “Laboratory Preparedness for Pandemic Influenza.”
                       9 We excluded Chicago from our study because it does not maintain jurisdiction over a
                   public health laboratory.

 OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   3
I N T R O D         U C T           I O N


                     We requested responses to our survey about the nine biological
                     laboratory testing and reporting requirements under review. We also
                     requested supporting documentation where applicable. We had a
                     100-percent survey response rate.
                     Data Analysis
                     We reviewed survey responses and supporting documents to determine
                     the total number of States that reported meeting each of the nine
                     testing and reporting requirements under review.

                     With the exception of Requirement 10, all of the requirements under
                     review contain multiple elements. We considered that a State met a
                     requirement if it reported conducting or developing all elements
                     contained in the requirement.

                     For example, to meet Requirement 2, States must test the competency
                     of their Bioterrorism Laboratory Coordinator, or designated trainer, to
                     advise laboratory personnel on five shipping-related elements:
                     (1) specimen collection, (2) packaging, (3) labeling, (4) shipping, and
                     (5) maintaining chain-of-custody. We considered that a State met
                     Requirement 2 if it reported meeting all five shipping-related elements.

                     Similarly, to meet Requirement 5, States must develop operational
                     plans that include 11 elements. We considered that a State met
                     Requirement 5 if it reported that its operational plans contained all
                     11 elements.

                     Further, we noted cases in which States reported conducting or
                     developing some, but not all, of the required elements.
                     Limitations
                     We relied on self-reported survey responses and supporting
                     documentation to determine whether States met each testing and
                     reporting requirement. We did not confirm the States’ ability to meet
                     the requirements.

                     Finally, we did not evaluate whether the Cooperative Agreement
                     requirements and all elements decrease the time to detect and report
                     public health threats as intended.
                     Standards
                     This study was conducted in accordance with the “Quality Standards for
                     Inspections” issued by the President’s Council on Integrity and
                     Efficiency and the Executive Council on Integrity and Efficiency.



  OEI-04-07-00750    P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   4
     Δ       F I N D I N G S



All States reported meeting at least three of the CDC            Under the Cooperative Agreement,
        public health laboratory testing and reporting           State public health laboratories
         requirements that we reviewed, but no State             must meet specific requirements
                                                                 intended to decrease the time
                                           met all nine
                                                                 needed to detect and report
                           biological public health threats. States reported meeting the public
                           health laboratory biological testing and reporting requirements that we
                           reviewed to varying degrees. See Appendix D for the number of States
                           grouped by the number of requirements that they reported meeting.
                           In addition, States reported meeting the nine testing and reporting
                           requirements that we reviewed to differing extents. For example, all
                           States reported meeting Requirement 6, and three States reported
                           meeting Requirement 1.

                           Table 1 shows the number of States that reported meeting each public
                           health laboratory biological testing and reporting requirement reviewed.


                                             Table 1: States Reporting That They Met Each Public Health
                                              Laboratory Biological Testing and Reporting Requirement
                                   Requirement*                                                       Number of States                           Percentage of
                                                                                                        That Reported                              States That
                                                                                                          Meeting the                        Reported Meeting
                                                                                                         Requirement                          the Requirement
                                   Requirement 6: Ensuring availability of                                          53                                   100%
                                   a Biosafety Level-3 (BSL-3) facility **
                                   Requirement 9: Ensuring the testing                                                           51                      96%
                                   and reporting of selected viruses
                                   Requirement 8: Ensuring necessary                                                             50                      94%
                                   instrumentation and staff
                                   Requirement 4: Ensuring laboratory                                                            46                      87%
                                   personnel training
                                   Requirement 5: Developing laboratory                                                          34                      64%
                                   operational plans
                                   Requirement 2: Testing the Bioterrorism                                                       22                      42%
                                   Laboratory Coordinator
                                   Requirement 10: Monitoring a                                                                  17                      32%
                                   timeliness policy for reporting results
                                   Requirement 3: Testing sentinel                                                                 5                       9%
                                   laboratory shipping capability
                                   Requirement 1: Maintaining a sentinel                                                           3                       6%
                                   laboratory database
                                * We excluded Requirements 7 and 11 from our review.
                                ** BSL is a four-tiered system (BSL-1, BSL-2, BSL-3, BSL-4) that provides increasing
                                 levels of safety for laboratory workers and containment of biological agents.




         OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S           5
F   I N D I N G



                      At least 87 percent of States reported meeting all elements in four of nine
                      testing and reporting requirements that we reviewed
                      All States reported the availability of a Biosafety Level-3 facility or had an
                      agreement to use the testing capacity of another jurisdiction. Public health
                      laboratories must ensure the availability of a BSL-3 facility to maintain
                      the safety of laboratory personnel conducting tests on dangerous biological
                      agents. BSL-3 facilities are also designed to prevent the escape of
                      dangerous biological agents into the environment.

                      All States reported having BSL-3 testing capacity, as specified by
                      Requirement 6. Ninety-four percent of States (50 of 53) reported that
                      they have an operational BSL-3 facility. The three States without a
                      facility reported satisfying the requirement for BSL-3 capacity through
                      formal arrangements with other jurisdictions.

                      Ninety-six percent of States reported the capacity to test and report
                      specimens suspected of containing the viruses that cause smallpox,
                      cowpox, and chickenpox. The virus that causes smallpox (Variola major)
                      is considered a critical biological agent because of its threat to public
                      health if used in a terrorist event. 10 Although they are not considered
                      to be critical biological agents, the viruses that cause cowpox (Vaccinia)
                      and chickenpox (Varicella) may lead to a skin rash that resembles a
                      rash caused by the smallpox virus. Therefore, laboratories must be able
                      to test for the viruses that cause cowpox and chickenpox to rule out the
                      possibility that a pox-like skin rash was caused by the smallpox virus.
                      Ninety-six percent of States (51 of 53) reported having the capability to
                      test and report specimens suspected of containing Variola major,
                      Vaccinia, and Varicella, as specified by Requirement 9.

                      Ninety-six percent of States (51 of 53) reported having the capability to
                      conduct tests to rule out the presence of Variola major and report
                      specimens suspected of that virus. 11 Of this group, 40 of 51 States
                      reported in-State testing capability to rule out Variola major and the
                      remainder reported satisfying this requirement through formal
                      arrangements with other jurisdictions.

                      All 53 States reported having in-State capacity to test and report
                      Vaccinia and Varicella in specimens.

                        10 CDC. “Critical Biological Agents: Disease Reporting as a Tool for Determining
                      Bioterrorism Preparedness,” p. 1. Available online at
                      http://www2.cdc.gov/phlp/docs/cdc.horton.web.pdf. Accessed on December 20, 2007.
                          11 Due to safety concerns, CDC allows only a limited number of laboratories to perform
                      testing that specifically identifies Variola major.

    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   6
F   I N D I N G



                      Ninety-four percent of States reported having the appropriate instrumentation
                      and appropriately trained staff to perform selected CDC laboratory tests.
                      Public health laboratories must have appropriate instrumentation and
                      trained staff to perform specific laboratory tests to identify biological
                      agents that threaten public health. 12
                      Ninety-four percent of States (50 of 53) reported having the
                      instrumentation and staff to perform the laboratory tests specified by
                      Requirement 8.

                      Eighty-seven percent of States reported that public health laboratory
                      personnel are trained on all five required shipping-related elements.
                      It is often necessary to ship specimens to a laboratory with more
                      advanced testing expertise to positively identify biological agents that
                      threaten public health. Laboratory specimens must be properly handled
                      at all stages of the shipping process to ensure personnel safety and to
                      maintain specimen integrity.

                      Eighty-seven percent of States (46 of 53) reported training public health
                      laboratory personnel on all five required shipping-related elements as
                      specified by Requirement 4: (1) packaging, (2) labeling, (3) shipping,
                      (4) coordinating routing, and (5) maintaining chain-of-custody. 13 Almost
                      all States conducted training, but not on all five elements as required by
                      the Cooperative Agreement.
                      Less than 65 percent of States reported meeting all elements in
                      five of nine testing and reporting requirements that we reviewed, and less
                      than 10 percent of States reported meeting all elements in two of these
                      five requirements
                      Sixty-four percent of States reported developing laboratory operational
                      plans that contained all 11 required elements. By developing operational
                      plans for laboratory practices, laboratory officials can define procedures
                      and assign responsibility in advance of a public health event. In
                      addition, written plans help to ensure consistency and continuity in
                      laboratory practices.



                          12 The Cooperative Agreement requires at least one public health laboratory in each
                      jurisdiction to have the appropriate instrumentation and trained staff to perform
                      Polymerase Chain Reaction and Time-Resolved Fluorescence.
                          13 All States that participated in the pilot phase of this study informed us that they
                      consider coordinating routing to be a part of maintaining chain-of-custody. Therefore, our
                      survey asked about maintaining chain-of-custody only. If a State responded that it
                      conducted training on maintaining chain-of-custody, we also gave the State credit for
                      conducting training on coordinating routing.

    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   7
F   I N D I N G


                      Sixty-four percent of States (34 of 53) reported that their public health
                      laboratories have developed operational plans that contain all
                      11 elements specified by Requirement 5.

                      Table 2 shows that at least 81 percent of States (43 of 53) reported
                      developing at least one element of the operational plan, but not all
                      11 elements as required by the Cooperative Agreement.



                                    Table 2: States Reporting That They Had Developed Required
                                                   Elements of an Operational Plan
                              Required Element*                                           Number of States                   Percentage of States
                                                                                            That Reported                          That Reported
                                                                                              Developing                     Developing Element
                                                                                                  Element
                             Worker safety                                                              53                                          100%
                             Sample transport and handling                                              52                                           98%
                             Appropriate working conditions                                             52                                           98%
                             Threat assessment                                                          52                                           98%
                             Secure storage of critical agents                                          52                                           98%
                             Quality control and assurance                                              51                                           96%
                             Adherence to laboratory practices                                          51                                           96%
                             Staffing and training of personnel                                         50                                           94%
                             Intake and testing prioritization                                          48                                           91%
                             Proficiency testing                                                        47                                           89%
                             Appropriate levels of supplies and                                         43                                           81%
                             equipment
                           * See Requirement 5 in Appendix B for the text of the required elements.



                      Forty-two percent of States reported testing the competency of their
                      Bioterrorism Laboratory Coordinator, or designated trainer, to advise
                      laboratory personnel on all five required shipping-related elements.
                      Laboratory personnel must properly handle laboratory specimens at all
                      stages of the shipping process to ensure personnel safety and to
                      maintain specimen integrity. A central point of contact for
                      shipping-related advice ensures that laboratory personnel receive
                      accurate and consistent information.

                      Forty-two percent of States (22 of 53) reported testing the competency of
                      their Bioterrorism Laboratory Coordinator (Coordinator), or a
                      designated trainer, to advise laboratory personnel on all five
                      shipping-related elements as specified by Requirement 2: (1) specimen
                      collection, (2) packaging, (3) labeling, (4) shipping, and (5) maintaining
                      chain-of-custody.

                      Fifty percent of States (11 of 22) that reported testing the competency of
                      their Coordinator, or designated trainer, on all five elements noted that a
                      person other than the Coordinator (e.g., Safety Officer, Packaging and

    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S          8
F   I N D I N G


                      Shipping Coordinator) advised laboratory personnel on shipping
                      procedures.

                      Table 3 shows that at least 49 percent of States (26 of 53) reported
                      testing the competency of their Coordinator or designated trainer to
                      advise on at least one element, but not on all five elements as required
                      by the Cooperative Agreement.


                                   Table 3: States Reporting That Their Public Health Laboratories
                                   Tested Their Coordinator’s Competency To Advise on Required
                                                     Shipping-Related Elements
                                 Element                                  Number of States                                 Percentage of States
                                                                           Reporting Tests                                     Reporting Tests
                                 Packaging                                              30                                                 57%
                                 Shipping                                               30                                                 57%
                                 Labeling                                               29                                                 55%
                                 Specimen collection                                    26                                                 49%
                                 Chain-of-custody                                       26                                                 49%



                      Thirty-two percent of States reported conducting exercises to monitor
                      compliance with their timeliness policy for reporting test results.
                      To ensure timely responses to public health events, States establish
                      timeframes for reporting confirmatory results to sentinel laboratories
                      seeking assistance in identifying biological agents. By monitoring
                      timeliness policy compliance, State personnel may identify weaknesses
                      in their policies in advance of a real event.

                      Thirty-two percent of States (17 of 53) reported conducting exercises to
                      monitor compliance with their timeliness policy on sending confirmatory
                      results to sentinel laboratories (Requirement 10). 14 Three States
                      reported that they did not conduct exercises, but considered monitoring
                      their response times to real events (e.g., suspected plague and anthrax
                      incidents) to be tests of their timeliness policies. 15
                      Although 32 percent of States conducted exercises, 68 percent of States
                      (36 of 53) reported having a written timeliness policy for reporting
                      confirmatory results to sentinel laboratories. These States reported
                      that their public health laboratory timeliness policies established


                         14 The Cooperative Agreement requires States to monitor compliance with their
                      timeliness policy, but it does not specify how. During the pilot phase of this study, States
                      informed us that they monitored compliance through exercises. Therefore, we used
                      exercises as an indicator of compliance.
                          15 Our survey did not ask States whether they used real events to monitor compliance
                      with their timeliness policy.

    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   9
F   I N D I N G


                      specific timeframes for confirming the presence of bioterrorism and/or
                      nonbioterrorism agents in specimens. For example, one State
                      established an 8-hour timeframe for preliminary identification of both
                      anthrax and West Nile Virus. Another State established the timeframe
                      for preliminary identification of anthrax as 4 to 6 hours.

                      Nine percent of States reported testing the ability of sentinel laboratories to
                      ship biological specimens to a confirmatory laboratory on weeknights,
                      weekends, and holidays. Because a public health event can occur at any
                      time, sentinel laboratories must be prepared to ship biological
                      specimens to an appropriate confirmatory laboratory 24 hours a day,
                      7 days a week.

                      Nine percent of States (5 of 53) reported testing sentinel laboratories’
                      ability to ship specimens during all three timeframes specified by
                      Requirement 3—weekends, weeknights, and holidays. Fifty-three
                      percent of States (28 of 53) reported not conducting tests in any of the
                      three specified timeframes.

                      Table 4 shows that a minimum of 23 percent of States (12 of 53)
                      reported conducting tests in at least one required timeframe, but not in
                      all three timeframes as required by the Cooperative Agreement.



                                  Table 4: States Reporting That Their Public Health Laboratories
                                   Tested the Ability of Sentinel Laboratories To Ship Specimens
                                                During Three Required Timeframes
                                 Required Timeframe                                Number of States                      Percentage of States
                                                                                    Reporting Tests                          Reporting Tests
                                 Weekends                                                        19                                      36%
                                 Weeknights                                                      15                                      28%
                                 Holidays                                                        12                                      23%



                      In contrast to tests conducted on weeknights, weekends, and holidays,
                      72 percent of States (38 of 53) reported testing sentinel laboratories’
                      ability to ship specimens to a confirmatory laboratory, usually the State
                      public health laboratory, on weekdays during regular business hours.
                      States reported that sentinel laboratories are tested on weekdays
                      during regular business hours by three predominant methods: (1) State




    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   10
F   I N D I N G


                      packaging and shipping drills, (2) the College of American Pathologists’
                      Laboratory Preparedness Survey, and (3) routine shipments. 16
                      Table 4 on the previous page shows the number of States that reported
                      testing sentinel laboratories’ ability to ship specimens during the three
                      required timeframes. However, the table does not give an indication of
                      the percentage of all sentinel laboratories in the United States that
                      participated in testing.

                      Based on their respective criteria, States estimated that there were
                      4,079 to 4,199 sentinel laboratories in their jurisdictions. The total
                      number of sentinel laboratories in the United States depends on the
                      criteria used by each State to designate a laboratory as a sentinel
                      laboratory. States use different criteria when designating a sentinel
                      laboratory. Some States use the CDC-endorsed definition of basic and
                      advanced sentinel laboratory, while other States base this designation
                      on the laboratory’s testing and shipping capabilities.

                      For example, one State reported that it considers the least technically
                      capable laboratory to be a sentinel laboratory as long as it can recognize
                      when to send specimens to the State. Another State reported that it
                      does not have a written definition for sentinel laboratory, but considers
                      all hospital and Indian Health Services’ laboratories that perform
                      microbiology testing to be sentinel laboratories.

                      Table 5 shows that States reported testing between 8 and 14 percent of
                      sentinel laboratories’ (337 to 559 laboratories) ability to ship specimens
                      during the three required timeframes. 17


                                     Table 5: Sentinel Laboratories Performing Shipping Tests
                                                 During the Required Timeframes
                                    Required Timeframe                          Number of                   Percentage of Sentinel
                                                                                  Sentinel                 Laboratories Tested out
                                                                              Laboratories                          of All Sentinel
                                                                                   Tested                   Laboratories, (n=4,079)
                                    Weekends                                          559                                      14%
                                    Holidays                                          497                                      12%
                                    Weeknights                                        337                                       8%




                         16 In the College of American Pathologists’ Laboratory Preparedness Survey, laboratories
                      receive specimens and are evaluated on how well they follow established procedures,
                      including packaging and shipping.
                          17 To be conservative, we used the low range of the total estimate of sentinel laboratories
                      when calculating percentages.

    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   11
F   I N D I N G 



                      In contrast to the percentage of sentinel laboratories tested on
                      weeknights, weekends, and holidays, States reported testing the ability
                      of 29 percent of sentinel laboratories (1,175 laboratories) to ship
                      specimens on weekdays during regular business hours.

                      Six percent of States used at least the CDC-endorsed definition of basic
                      sentinel laboratory to identify sentinel laboratories in their jurisdictions and
                      maintained a database of sentinel laboratories including all seven required
                      elements. Public health laboratories rely on sentinel laboratories to obtain
                      specimens from patients. Therefore, it is critical that States accurately
                      identify sentinel laboratories in their jurisdictions and maintain a
                      database of their contact information and testing capabilities.

                      To meet Requirement 1, States must use the CDC-endorsed definition of
                      sentinel laboratory to identify sentinel laboratories in their jurisdictions
                      and develop a sentinel laboratory database including seven required
                      elements.

                      The CDC-endorsed definition of sentinel laboratory includes definitions for
                      a basic and an advanced sentinel laboratory. The Cooperative Agreement
                      does not specify whether States should use the basic or advanced
                      definition when determining which laboratories to include in their
                      databases. To be conservative, we considered a State to have used the
                      CDC-endorsed definition of sentinel laboratory if its definition contained
                      at least the four elements of a basic sentinel laboratory. 18
                      Although all but one State maintained a sentinel laboratory database,
                      only 6 percent of States (3 of 53) reported using at least the four
                      elements of the CDC-endorsed definition of basic sentinel laboratory
                      when determining which laboratories to include in their database and
                      maintaining a database containing all seven required database
                      elements.

                      Sixty-four percent of States (34 of 53) reported that they use at least the
                      four elements of the CDC-endorsed definition of basic sentinel laboratory
                      when designating a laboratory as a sentinel laboratory. In most cases,
                      State definitions of sentinel laboratory also included some elements of an
                      advanced sentinel laboratory.




                          18 The Cooperative Agreement does not contain the CDC-endorsed definition of sentinel
                      laboratory. We obtained the definition directly from CDC officials.

    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   12
F   I N D I N G



                      Table 6 shows that at least 74 percent of States (39 of 53) used at least one
                      element of the CDC-endorsed definition of a basic sentinel laboratory, but
                      not all four elements, in their State definition.


                                  Table 6: States Reporting That They Incorporate At Least the
                                   Required Elements of the CDC-endorsed Definition of Basic
                                           Sentinel Laboratory in Their State Definition
                            Required Element                                                               Number                     Percentage of
                                                                                                     of States That                      States That
                                                                                                      Incorporated                     Incorporated
                                                                                                           Element                          Element
                            The laboratory has policies and                                                      50                             94%
                            procedures for referring suspicious
                            samples to the nearest Laboratory
                            Response Network (LRN) laboratory in
                            its jurisdiction.*
                            The laboratory is certified under the                                                       46                          87%
                            Clinical Laboratory Improvement
                            Amendment of 1988 (CLIA) by CMS.
                            The laboratory is inspected by a CMS                                                        45                          85%
                            agent, a CMS-approved accreditation
                            organization, or the State (for CLIA-
                            exempt laboratories).
                            The laboratory has policies and                                                             39                          74%
                            procedures for referring samples to an
                            advanced sentinel laboratory.
                          * The LRN is a system of public health and clinical laboratories through which

                          unidentified specimens are progressively tested until a positive identification is 

                          obtained. Laboratories in the LRN are categorized into three levels according to

                          their expertise: sentinel, reference, and national.




                      States must maintain a sentinel laboratory database that includes
                      seven required elements. Although all States but one maintained a
                      sentinel laboratory database, 9 percent of States (5 of 53) maintained a
                      database with all 7 required elements.

                      Table 7, on the following page, shows that at least 17 percent of States
                      (9 of 53) reported developing at least one element of the database, but
                      not all seven elements as required by the Cooperative Agreement. See
                      Requirement 1 in Appendix B for the full text of the required elements.




    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S         13
F    I N D I N G 





                              Table 7: States in Which Public Health Laboratories Maintain the
                                   Required Elements of a Sentinel Laboratory Database
                            Element                                                                     Number                      Percentage of
                                                                                                       of States                       States That
                                                                                                            That                       Maintained
                                                                                                      Maintained                          Element
                                                                                                        Element
                            Name                                                                              52                                    98%
                            Contact information                                                               50                                    94%
                            Certification status                                                              33                                    62%
                            BioSafety level                                                                   29                                    55%
                            Partnership in State or CDC Health Alert                                          28                                    53%
                            Network
                            Rule out capability of selected                                                          17                             32%
                            bioterrorism agents
                            Contact information for out-of-State                                                       9                            17%
                            confirmatory laboratories used by the
                            jurisdiction’s sentinel laboratories




    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S         14
Δ   R E C O M M E N D A T I O N



                  The CDC Public Health Emergency Preparedness Cooperative
                  Agreement provides funds to States to increase their public health
                  preparedness and response capabilities. To improve public health
                  laboratory preparedness, States must meet specific requirements to
                  decrease the time needed to detect and report biological threats to
                  public health. These requirements have remained unchanged since
                  2005 and should be completed in 5 years, ending in 2010.

                  All States reported meeting at least three of the testing and reporting
                  requirements we reviewed, but no State met all nine.

                  At least 87 percent of States reported meeting all elements in four of
                  nine requirements that we reviewed. Less than 65 percent of States
                  reported meeting all elements in the other five requirements, and less
                  than 10 percent of States reported meeting all elements in two of
                  these five requirements.
                  We Recommend That CDC Continue To Assist States in Meeting
                  Cooperative Agreement Requirements Intended To Decrease the Time
                  Needed To Detect and Report Biological Public Health Threats

                  There are 2 years remaining before States must complete all
                  laboratory preparedness requirements. Therefore, CDC should place
                  special emphasis on improving performance for the two requirements
                  met by less than 10 percent of States. CDC could improve
                  performance for these requirements by the following two methods:

                   •	     Determining why less than 10 percent of States conducted tests of
                          their sentinel laboratories’ shipping capabilities outside of regular
                          business hours, and providing assistance to States on how to
                          increase the number of tests conducted. Because a public health
                          event can occur at any time, sentinel laboratories must be prepared
                          to ship biological specimens to an appropriate confirmatory
                          laboratory 24 hours a day, 7 days a week. We recognize that
                          sentinel laboratories are not under the authority of State public
                          health laboratories and that States must rely on voluntary sentinel
                          laboratory participation in shipping tests. However, during a real
                          event, States can conduct confirmatory testing and report results
                          only as quickly as they receive properly shipped specimens from
                          sentinel laboratories.

                   •	     Ensuring that States use a consistent method to identify sentinel
                          laboratories to include in their databases and that the databases

OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   15
R   E C O       M M E N D A T                        I O N


                              include all required elements. CDC should determine whether
                              the method of identifying sentinel laboratories should be based on
                              the current CDC-endorsed definitions of sentinel laboratory or by
                              another method, such as the laboratory’s testing and shipping
                              capabilities. If the identification is based on the CDC-endorsed
                              definitions, CDC should clarify whether State databases should
                              include basic and/or advanced sentinel laboratories. By assisting
                              States to consistently identify sentinel laboratories, CDC can help
                              ensure that States are working with the appropriate population
                              of sentinel laboratories intended by the Cooperative Agreement.
                              By ensuring that sentinel laboratory databases include all
                              required elements, States will have the information necessary to
                              coordinate with laboratories that will play a key role in a public
                              health response before an event occurs.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CDC concurred with our overall recommendation that it should
                      continue to assist States in meeting the Cooperative Agreement
                      requirements intended to decrease the time needed to detect and report
                      biological public health threats.

                      However, CDC did not concur with the first method we provided on
                      improving performance for the requirements met by less than
                      10 percent of States. OIG agreed with CDC’s recommended changes to
                      our first method and revised the report accordingly.
                      Regarding the second method, CDC concurred that it should determine
                      how sentinel laboratories are identified. However, CDC noted that
                      States should have some flexibility in determining the functional
                      criteria for a laboratory to be considered a sentinel laboratory. CDC
                      also proposed that we revise our language to reflect that CDC should
                      work with States to assess the effectiveness of different definitions of a
                      sentinel laboratory and provide States with guidance on the basic
                      criteria for a laboratory to be included in a database of sentinel
                      laboratories. OIG did not incorporate these recommended changes
                      because we do not consider them to be consistent with the Cooperative
                      Agreement requirement for States to use the CDC-endorsed definition
                      of a sentinel laboratory when developing their databases.

                      CDC also provided general and technical comments on our draft report.
                      In its general comments, CDC noted that States have until 2010 to meet

    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   16
R    E C O        M M E N D A T                         I O N


                      all the requirements we reviewed and requested that this information
                      be stated prominently in our final report. CDC also recommended that
                      OIG provide background information on how the Cooperative
                      Agreement requirements were developed.

                      We noted in our draft report that States have until 2010 to complete the
                      Cooperative Agreement requirements we reviewed. This information
                      was included in the Background section of the Executive Summary and
                      Introduction. We have also added this information in the
                      Recommendation sections of this final report. We did not add additional
                      background information on how the Cooperative Agreement
                      requirements were developed because that information is not necessary
                      to explain our report findings.

                      Finally, we have incorporated responses to CDC’s technical comments
                      as appropriate. The full text of CDC’s comments is provided in
                      Appendix E.




    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   17
Δ       A P P E N D I X ~ A



                                           Overview of the 

                            Centers for Disease Control and Prevention’s 

                         Nine Public Health Emergency Preparedness Goals 



1. 	    Preparedness Goal 1, Prevent: This goal contains six critical tasks intended to
        increase the use and development of interventions known to prevent human illness
        from chemical, biological, and radiological agents and from naturally occurring health
        threats.

2. 	    Preparedness Goal 2, Prevent: This goal contains seven critical tasks intended to
        decrease the time needed to classify health events as terrorism or naturally occurring,
        in partnership with other agencies.

3. 	    Preparedness Goal 3, Detect/Report: This goal contains two critical tasks intended to
        decrease the time needed to detect and report chemical, biological, and radiological
        agents that cause threats to the public’s health in tissue, food, or environmental
        samples.

4. 	    Preparedness Goal 4, Detect/Report: This goal contains six critical tasks intended to
        improve the timeliness and accuracy of information regarding threats to the public’s
        health as reported by clinicians and through electronic early event detection, in real
        time, to those who need to know.

5. 	    Preparedness Goal 5, Investigate: This goal contains four critical tasks intended to
        decrease the time needed to identify causes, risk factors, and appropriate interventions
        for those affected by threats to the public’s health.

6. 	    Preparedness Goal 6, Control: This goal contains 33 critical tasks intended to
        decrease the time needed to provide countermeasures and health guidance to those
        affected by threats to the public’s health.

7. 	    Preparedness Goal 7, Recover: This goal contains two critical tasks intended to
        decrease the time needed to restore health services and environmental safety to
        preevent levels.

8. 	    Preparedness Goal 8, Recover: This goal contains three critical tasks intended to
        increase the long-term followup provided to those affected by threats to the public’s
        health.

9. 	    Preparedness Goal 9, Improve: This goal contains four critical tasks intended to
        decrease the time needed to implement recommendations from after-action reports
        following threats to the public’s health.




       OEI-04-07-00750      P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   18
Δ         A P P E N D I X ~ B



                          Centers for Disease Control and Prevention’s 

                            Preparedness Goal 3: Detect and Report 


Decrease the time needed to detect and report chemical, biological, and radiological agents
that cause threats to the public’s health in tissue, food, or environmental samples.
Target Capability: Public Health Laboratory Testing
Required Critical Task 1:

Increase and maintain relevant laboratory support for identification of biological, chemical,
radiological, and nuclear agents in clinical (human and animal), environmental, and food
specimens.

Requirement 1: Develop and maintain a database of all sentinel (biological)/Level Three
(chemical) laboratories in the jurisdiction using the Centers for Disease Control and
Prevention (CDC)-endorsed definition, which includes:

   •	    Name

   •	    Contact information

   •	    Biosafety Level (BSL)

   •	    Whether the laboratory is a health alert network partner

   •	    Certification status

   •	    Capability to rule out Categories A and B bioterrorism agents per State-developed
         proficiency testing or College of American Pathologists bioterrorism module proficiency
         testing

   •	    Names and contact information for in-State and out-of-State reference laboratories
         used by each of the jurisdiction’s sentinel/Level Three laboratories


Requirement 2: Test the competency of a chemical terrorism laboratory coordinator and
bioterrorism laboratory coordinator to advise on proper collection, packaging, labeling,
shipping, and chain-of-custody of blood, urine, and other clinical specimens.

Requirement 3: Test the ability of sentinel/Level Three labs to send specimens to a
confirmatory Laboratory Response Network (LRN) laboratory on nights, weekends, and
holidays.

Requirement 4: Package, label, ship, coordinate routing, and maintain chain-of-custody of
clinical, environmental, and food specimens/samples to laboratories that can test for agents
used in biological and chemical terrorism.



        OEI-04-07-00750    P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   19
   A    P   P E N D       I X ~          B


Requirement 5: Continue to develop or enhance operational plans and protocols that include:

   •	    Specimen/samples transportation and handling

   •	    Worker safety

   •	    Appropriate BSL working conditions for each threat agent

   •	    Staffing and training of personnel

   •	    Quality control and assurance

   •	    Adherence to laboratory methods and protocols

   •	    Proficiency testing to include routine practicing of LRN-validated assays as well as
         participation in the LRN’s proficiency testing program electronically through the LRN
         Web site

   •	    Threat assessment in collaboration with local law enforcement and the Federal
         Bureau of Investigation to include screening for radiological, explosive, and chemical
         risk of samples

   •	    Intake and testing prioritization

   •	    Secure storage of critical agents

   •	    Appropriate levels of supplies and equipment needed to respond to bioterrorism
         events, with a strong emphasis on surge capacities needed to effectively respond to a
         bioterrorism incident

Requirement 6: Ensure the availability of at least one operational BSL-3 facility in your
jurisdiction for testing for biological agents. If one is not immediately available, BSL-3
practices, as outlined in the CDC-National Institutes of Health publication “Biosafety in
Microbiological and Biomedical Laboratories,” 4th Edition, should be used (see
www.cdc.gov/od/ohs) or formal arrangements (i.e., Memorandum of Understanding) should be
established with a neighboring jurisdiction to provide this capacity.

Requirement 7: Ensure that laboratory registration, operations, safety, and security are
consistent with both the minimum requirements set forth in Select Agent Regulation
(42 CFR 73) and the U.S. Patriot Act of 2001 (P.L. No. 107-56) and subsequent updates.

Requirement 8: Ensure that at least one public health laboratory in your jurisdiction has the
appropriate instrumentation and appropriately trained staff to perform CDC-developed and
validated real-time rapid assays for nucleic acid amplification (Polymerase Chain Reaction)
and antigen detection (Time-Resolved Fluorescence).

Requirement 9: Ensure the capacity for LRN-validated testing and reporting of Variola
major, Vaccinia, and Varicella viruses in human and environmental samples either in the
public health laboratory or through agreements with other LRN laboratories.


        OEI-04-07-00750    P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   20
   A   P   P E N D       I X ~          B



Required Critical Task 2:

Increase the exchange of laboratory testing orders and results.

Requirement 10: Monitor compliance with public health agency (or public health agency lab)
policy on timeliness of reporting results from a confirmatory LRN lab back to the sending
sentinel/Level Three lab (i.e., feedback and linking of results to relevant public health data)
with a copy to CDC as appropriate.

Requirement 11: Comply with Public Health Information Network Preparedness “Connecting
Laboratory Systems” and “Outbreak Management” Functional Areas to enable the linkage of
laboratory orders and results from sentinel/Level Three and confirmatory LRN labs to
relevant public health data, and maintenance of chain-of-custody.




       OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   21
Δ        A P P E N D I X ~ C



    Sentinel Laboratory Definitions Endorsed by the Centers for Disease Control and 

                                      Prevention 


Basic Sentinel Clinical Laboratory:

1. The laboratory is certified under the Clinical Laboratory Improvement Amendments of
1988 (CLIA) by the Centers for Medicare & Medicaid Services (CMS) for the applicable
subspecialty within the specialty of microbiology.

2. The laboratory is inspected successfully by CMS, a CMS agent, a CMS-approved
accreditation organization, or, for a CLIA-exempt laboratory, by that laboratory’s State.

3. The laboratory has policies and procedures for referral of diagnostic specimens to an
Advanced Sentinel Laboratory.

4. The laboratory has policies and procedures for direct referral of suspicious specimens or
isolates to the nearest Laboratory Response Network (LRN) reference laboratory in its
jurisdiction.


Advanced Sentinel Clinical Laboratory:

1. The laboratory is certified under CLIA by CMS for the applicable subspecialty within the
specialty of microbiology and meets the requirements to perform high-complexity testing.

2. The laboratory is inspected successfully by CMS, a CMS agent, a CMS-approved
accreditation organization, or, for a CLIA-exempt laboratory, by that laboratory’s State.

3. The laboratory has policies and procedures for direct referral of suspicious specimens or
isolates to the nearest LRN reference laboratory in its jurisdiction.

In addition to the above criteria, Advanced Sentinel Laboratories shall meet the following:

4. Have a Class II or higher Certified Biological Safety Cabinet.

5. Comply with Biosafety Level 2 (BSL-2) practices. 19
6. Have policies and procedures in place for use of additional respiratory protection, including
a definition of when such use is necessary, as well as documentation of safe use
(e.g., N-95 fit-testing).

7. Have policies and procedures, including the LRN Sentinel Level Clinical Microbiology
Laboratory Guidelines, that are available and can be downloaded from the American Society
for Microbiology Web site: http://www.asm.org/Policy/index.asp?bid=6342.


                            19 Department of Health and Human Services. “Biosafety in Microbiological and
                        Biomedical Laboratories,” 4th Edition.

      OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   22
   A   P   P E N D       I X ~           C



8. All personnel have been trained, with demonstrated competency, and are fully aware of the
details contained within each LRN Sentinel Level Clinical Microbiology Laboratory Guideline.

9. Personnel have been trained and certified in guidelines on packing and shipping of
infectious substances. 20
10. Have procedures to track and account for decontamination of laboratory biological waste
(specimens, cultures). At a minimum, ensure that any contract or procedure for
waste/disposal is available for inspection in the laboratory safety or waste disposal manual.

It is further highly recommended that Advanced Sentinel Laboratories comply with the
following:

11. The microbiology laboratory operates under negative pressure as recommended by the
American Institute of Architecture (AIA) Guidelines for Construction of Healthcare
Facilities. 21 If a microbiology laboratory is planning to remodel or construct a new facility, it
should be designed to operate under negative air pressure as recommended by the AIA. This
applies only to new construction or remodeling.

12. There is onsite, terminal decontamination capability, e.g., autoclaving, for disposal of
wastes categorized as BSL-3 or Select Agent.




                            20 Federal Register, Part IV, Department of Transportation, 49 CFR pt. 172, Hazardous
                          Materials: Security Requirements for Offerors and Transporters of Hazardous Materials;
                          Final Rule.
                              21 American Institute of Architecture. “Guidelines for Construction of Healthcare
                          Facilities,” 2001 Edition.

       OEI-04-07-00750    P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   23
Δ   A P P E N D I X ~ D



             States Grouped by the Number of Centers for Disease Control and 

          Prevention Public Health Laboratory Testing and Reporting Requirements 

                                   They Reported Meeting 





                                                                                   18


                                                                                               15
                  Number of States




                                                                      11




                                                                                                             6



                                                           2
                                                                                                                          1


                                     1         2           3            4           5           6            7            8            9

                                         Number of Requirements States Reported Meeting




OEI-04-07-00750            P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   24
Δ     A P P E N D I X ~ E

                                                Agency Comments




    OEI-04-07-00750   P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   25
A P P E N D           I X          ~           E




    OEI-04-07-00750         P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   26
A P P E N D          I X        ~           E




   OEI-04-07-00750     P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   27
A P P E N D          I X        ~           E




   OEI-04-07-00750     P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   28
 A P AP   CE KN N
                D IO XW L~ E AD G M E N T S
Δ

                     This report was prepared under the direction of Robert A. Vito, Acting
                     Regional Inspector General for Evaluation and Inspections in the
                     Atlanta regional office, and Dwayne F. Grant, Deputy Regional
                     Inspector General.

                     Mary-Elizabeth Harmon served as the lead analyst for this study.
                     Other principal Office of Evaluation and Inspections staff from the
                     Atlanta regional office who contributed to this report include Peggy W.
                     Daniel; central office staff who contributed include Mark Richardson;
                     Jodi Nudelman from the New York regional office also contributed.




   OEI-04-07-00750    P U B L I C H E A LT H L A B O R AT O RY T E S T I N G T O D E T E C T   AND   R E P O R T B I O L O G I C A L T H R E AT S   29
